U.S. Department of Justice

 

Office of the Solicitor Gencral

 

The Solicitor General Washington, D.C. 20530

October 3, 2019

The Honorable Scott S. Harris
Clerk

Supreme Court of the United States
Washington, D.C. 20543

Re: Salinas v. U.S. Railroad Retirement Board
8. Ct No, 19-199

Dear Mr. Harris:

The petition for a writ of certiorari in the above-captioned case was filed on
August 15, 2019, The government’s response is now due, after one extension, on
October 16, 2019, We respectfully request, under Rule 30.4 of the Rules of this Court, a
further extension of time to and including November 15, 2019, within which to file the
government’s response.

This extension is necessary because the attorneys with principal responsibility for
final preparation of the government’s response have been heavily engaged with the press
of other matters before the Court.

Counsel for petitioner does not object to this further extension of time.

Sincerely,

NOEL J. FRANCISCO
Solicitor General

ce: See Attached Service List
19-0199
SALINAS, MANFREDO M.
U.S. RAILROAD RETIREMENT BOARD

LISA S. BLATT

WILLIAMS & CONNOLLY LLP
725 TWELFTH STREET, NW
WASHINGTON, DC 20005
202-434-5000
LBLATT@WC.COM
